IN THE SUPREME COURT OF THE UNITED STATES

No. 20-666
ROBERT M. WILKINSON, ACTING ATTORNEY GENERAL, ET AL., PETITIONERS
Vv.

CITY AND COUNTY OF SAN FRANCISCO, ET AL.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

JOINT STIPULATION TO DISMISS

Pursuant to Rule 46.1 of the Rules of this Court, all parties
respectfully stipulate that this case be dismissed. No fees are

due to the Clerk, and each party will bear its own costs.

Respectfully submitted.

Ea Pawn

ELIZABETH B. PRELOGAR
Acting Solicitor General
United States Department of Justice
Washington, D.C. 20530-0001

SupremeCtBriefs@usdoj.gov
(202) 514-2217

 

Counsel for Petitioners
   

RA J. EISENBE
Deputy City At rney

San Francisco City Attorney’s Office
City Hall, Room 234

One Dr. Carlton B. Goodlett Place
San Francisco, CA 94102

sara.eisenbergésfcityatty.org
(415) 554-4633

Counsel for Respondent
City and County of San Francisco
xn >
eo _
AMUEL P. EGEL
Deputy Solicitor General

California Department of Justice
1300 I Street
Sacramento, CA 95814

Sam.Siegel@doj.ca.gov
(916) 210-6269

 

Counsel for Respondent
State of California ex rel.

Xavier Becerra, Attorney General

MARCH 4, 2021
